No. IN THE SUPREME COURT OF THE
UNITED STATES
JAMES DENNIS,
Petitioner
v.
COMMONWEALTH OF VIRGINIAA
Respondent
CERTIFICATE OF SERVICE
I, James Dennis, certify that on April 1,2021, a copy
of a Petition for Writ of Certiorari in the above styled
case and a copy of this certificate were sent via
priority mail to the US Supreme Court for delivery to
the Clerk’s Office. I further certify that a true and
correct copy of the Petition for Writ of Certiorari was
sent by United States Mail on this date to:
Attorney General’s Office
Counsel for Respondent
900 East Main Street
Richmond, Virginia 23219
Executed on April 1, 2021

James Dennis, pro se

RECEIVED
APR - 6 2021

